<html>
<title> - H.R. 1509, THE RECREATIONAL BOATERS STREAMLINED INSPECTION ACT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
     H.R. 1509, THE RECREATIONAL BOATERS STREAMLINED INSPECTION ACT

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON ECONOMIC
                        SECURITY, INFRASTRUCTURE
                     PROTECTION, AND CYBERSECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 19, 2005

                               __________

                           Serial No. 109-14

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________



                    U.S. GOVERNMENT PRINTING OFFICE
23-098                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012006


                     COMMITTEE ON HOMELAND SECURITY

                 Christopher Cox, California, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania, Vice      Edward J. Markey, Massachusetts
Chairman                             Norman D. Dicks, Washington
Christopher Shays, Connecticut       Jane Harman, California
Peter T. King, New York              Peter A. DeFazio, Oregon
John Linder, Georgia                 Nita M. Lowey, New York
Mark E. Souder, Indiana              Eleanor Holmes Norton, District of 
Tom Davis, Virginia                  Columbia
Daniel E. Lungren, California        Zoe Lofgren, California
Jim Gibbons, Nevada                  Sheila Jackson-Lee, Texas
Rob Simmons, Connecticut             Bill Pascrell, Jr., New Jersey
Mike Rogers, Alabama                 Donna M. Christensen, U.S. Virgin 
Stevan Pearce, New Mexico            Islands
Katherine Harris, Florida            Bob Etheridge, North Carolina
Bobby Jindal, Louisiana              James R. Langevin, Rhode Island
Dave G. Reichert, Washington         Kendrick B. Meek, Florida
Michael McCaul, Texas
Charlie Dent, Pennsylvania

                                 ______

   Subcommittee on Economic Security, Infrastructure Protection, and 
                             Cybersecurity

                Daniel E. Lungren, California, Chairman

Don Young, Alaska                    Loretta Sanchez, California
Lamar S. Smith, Texas                Edward J. Markey, Massachusetts
John Linder, Georgia                 Norman D. Dicks, Washington
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            James R. Langevin, Rhode Island
Bobby Jindal, Louisiana              Bennie G. Thompson, Mississippi 
Christopher Cox, California (Ex      (Ex Officio)
Officio)

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California, and Chairman Subcommittee on 
  Economic Security, Infrastructure Protection and Cybersecurity.     1
The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California, and Ranking Member, Subcommittee on 
  Economic Security, Infrastructure Protection and Cybersecurity.     2
The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Committee on Homeland 
  Security.......................................................
  Oral Statement.................................................     4
  Prepared Statement.............................................     3
The Honorable John Linder, a Representative in Congress From the 
  State of Georgia...............................................    20

                        Submitted for the Record

The Honorable E. Clay Shaw, Jr., a Representative in Cngress From 
  the State of Florida...........................................     8

                               WITNESSES

The Honorable Mark Foley, a Representative in Congress From the 
  State of Florida:
  Oral Statement.................................................     5
  Prepared Statement.............................................     6
Mr. Jim Ellis, President, Boat Owners Association of the United 
  States, BOAT/U.S.:
  Oral Statement.................................................     8
  Prepared Statement.............................................    10
Mr. Robert Jacksta, Executive Director, Border Security and 
  Facilitation, Office of Field Operations, U.S. Customs and 
  Border Protection, Department of Homeland Security:
  Oral Statement.................................................    11
  Prepared Statement.............................................    13


     H.R. 1509, THE RECREATIONAL BOATERS STREAMLINED INSPECTION ACT

                              ----------                              


                         Thursday, May 19, 2005

                          House of Representatives,
                         Subcommittee on Economic Security,
              Infrastructure Protection, and Cybersecurity,
                    Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:08 p.m., in 
Room 210, Cannon House Office Building, Hon. Dan Lungren 
[chairman of the subcommittee] presiding.
    Present: Representatives Lungren, Linder, Rogers, Sanchez, 
and Langevin.
    Mr. Lungren. The Committee on Homeland Security, 
Subcommittee on Economic Security Infrastructure Protection and 
Cybersecurity will come to order.
    The subcommittee is meeting today for a legislative hearing 
on H.R. 1509, the Recreational Boaters Streamlined Inspection 
Act.
    Mr. Lungren. I would first like to welcome our witnesses 
and thank them for taking the time out of their schedules to be 
with us today. We are holding this hearing to discuss 
legislation that has been referred to the Committee. H.R. 1509, 
the Recreational Boaters Streamlined Inspection Act was 
introduced by Mark Foley of Florida on April 6th of this year. 
I would like to welcome our colleague from Florida, who is here 
to testify before this Subcommittee.
    Last week this Subcommittee held a hearing regarding the 
screening of airline pilots by the Transportation Security 
Administration. Since 9/11, the Federal Government has spent 
more than $13 billion on this function. The problem with this 
policy appears to be that it treats all airline passengers the 
same, including the pilots, who ultimately wield a lethal 
weapon once they take control of the aircraft.
    Airline pilots are subjected to psychological exams, FBI 
criminal background checks, a number of other tests, before 
being able to hold a badge that allows them to fly the planes. 
I believe that the man hours and dollars spent by DHS to fund 
these screenings might better be used elsewhere. Similarly, 
with all screening activities, precious DHS dollars and efforts 
should be focused on those persons that pose the greatest 
threat to our nation's security.
    Today's hearing is similarly focused on ensuring that 
security policies and resources are appropriately directed. 
H.R. 1509 is intended to make it easier on travelers entering 
the United States by recreational boat to comply with the 
immigration custom laws of the United States.
    Currently recreational boaters entering the United States 
through one of Florida's marinas must report to U.S. Customs 
and Border Protection offices after arrival to complete their 
required immigration and custom entry declarations. I am 
advised that these offices are quite far away from the ports 
oftentimes, requiring car rentals, long drives, things of that 
sort.
    The legislation that we are discussing today aims to 
relieve some of this burden on law-abiding travelers. As we 
will hear shortly from Mr. Foley, H.R. 1509 is intended to 
allow these travelers to meet Custom and Immigration 
requirements by creating an inspection program that uses two-
way video phones. Video phones, under this legislation, would 
be installed at 13 ports in the State of Florida through which 
travelers could communicate with Customs and Border Protection 
officers during inspection.
    Currently, 35 marinas along the northern border, including 
Detroit, Michigan; Buffalo, New York; and Portland, Maine 
utilize similar systems called the Outlying Area Reporting 
Station program, sometimes referred to as OARS. This 
subcommittee is particularly focused on evaluating how security 
programs and policies impact economic security, as well as how 
security programs can be developed in a manner that actually 
facilitates trade and travel.
    We have an opportunity to further this discussion by 
reviewing options for travel facilitation in southern Florida, 
and the security implications of the proposed changes. We will 
hear from Congressman Foley, this bill's sponsor, Mr. Jimm 
Ellis, President of BoatU.S., and Mr. Robert Jacksta from U.S. 
Customs and Border Protection at the Department of Homeland 
Security.
    I, once again, thank our witnesses for joining us today and 
look forward to their testimony. And the Chair would now 
recognize the ranking member, Ms. Sanchez, for any opening 
statement she might have.
    Ms. Sanchez. Thank you, Mr. Chairman. And I appreciate you 
calling this Congressional hearing. And I would like to welcome 
all of our witnesses, of course, including our own colleague, 
Congressman Mark Foley of Florida. Thank you for your testimony 
today.
    I am pleased that we have the opportunity to consider this 
bill, the Recreational Boaters Streamlined Inspection Act, as 
introduced by Representative Foley. The bill under 
consideration aims to ease the compliance burdens that 
recreational boaters face in Florida, and would require DHS to 
develop an inspection program for these boaters. And like my 
colleague from Florida, I believe that the Department of 
Homeland Security should put policies in place that do not 
overly burden our citizens. However, I have some concerns in 
which I hope he and the other witnesses will address during 
their testimony.
    First, I am concerned that a video phone system such as the 
one that Congressman Foley proposes may be used by drug 
smugglers to facilitate their operations. And second, I am 
concerned that Customs and Border Protection does not have 
adequate staffing to conduct these inspections. CBP would have 
to increase staff to inspect boats year-round. The Great Lakes 
program, on which the proposal is based, runs for a much 
shorter period, as you know. Being on the northern border, the 
boating season is shorter than what we would anticipate in 
Miami or southern California.
    And finally, I am unaware as to whether or not DHS has 
determined that the video phone technology used by boaters 
meets our current security requirements. I would appreciate the 
Congressman's response to this question, in particular. And 
again, I look forward to hearing the witnesses' testimony, and 
I yield back my time and we will get on with it.
    Mr. Lungren. Thank you, Ms. Sanchez.
    And now the Chair recognizes the Chairman of the full 
committee, the gentleman from California, Mr. Cox, for any 
statement he may have.

 Preapred Statement of the Honorable Christopher Cox, a Representative 
 in Congress From the State of California, and Chairman, Committee on 
                           Homeland Security

    Good afternoon, I would first like to thank Congressman Lungren for 
chairing this legislative hearing. The bill we are discussing today--
H.R. 1509, Recreational Boaters Streamlined Inspection Act--addresses 
the important issue of how we can facilitate the efforts of 
recreational boaters to comply with customs and immigration 
requirements.
    As we have all realized, the terrorist attack of September 11th, 
2001, forever altered our daily routines, our way of doing business, 
our travel plans, and our perceptions of safety and security. Where we 
once could run into the airport and board a plane with only minutes to 
spare before takeoff, we now must allow extra time for passenger and 
baggage screening. Where it was once a rare occurrence to walk through 
screening portals upon entering an office building, it is now expected.
    The task before all of us now is to balance security requirements 
while establishing an atmosphere of travel facilitation and preserving 
the American way of life. The bill we are examining today provides an 
opportunity to examine the issue of entry requirements for U.S. 
citizens involved in the marina industry and recreational boating.
    H.R. 1509 aims to facilitate the compliance of recreational boaters 
with customs and immigration inspection requirements. This legislation 
would create a system of video conferencing units that U.S. citizens 
and legal permanent residents could use to remotely complete 
inspections upon their arrival at any one of 13 Florida marinas.
    Current policies call for boaters arriving in Florida to travel to 
the nearest official manned port of entry to comply with entry 
requirements, which in most cases is an airport.
    We have an opportunity and a responsibility to weigh the security 
value of requiring US citizens to travel miles to a port of entry after 
docking their boat, rather than allowing them an easier alternative.
    We have no data on how many boaters, citizens or non-citizens, 
refuse to comply with the reporting requirements. As the Palm Beach 
Post discussed in a March editorial of this year, South Florida 
residents used to enjoy hassle-free trips to the Bahamas. Now, however, 
the trip means either ``a hassle or a flouting of the law.''
    The use of video conferencing to meet inspection requirements is 
not new to Customs and Border Protection. A similar program, called 
``OARS''--the Outlying Area Reporting Station program--has been in use 
since prior to 9/11 along the Northern Border. OARS is currently 
deployed at 35 ports of entry. This hearing provides an opportunity to 
explore lessons learned from OARS and how this program or a similar 
program might be expanded to other locations to provide greater travel 
facilitation.
    Would deploying the OARS program in Florida or at other southern 
ports of entry pose a new set of challenges and concerns that must be 
considered? How likely would it be that travelers entering through 
Florida ports would utilize this inspection and reporting tool?
    I look forward to discussing with each of our witnesses the 
potential of using video conferencing technology to streamline the 
inspection process. I also look forward to examining the differences 
between the Northern Border, where this technology is in use, and the 
Nation's Southeastern Border, to where it is proposed for expansion in 
this bill.
    I am pleased we have with us today Congressman Mark Foley, the 
sponsor of the legislation, Mr. Jim Ellis of BoatU.S., who is 
representing the interests of the recreational boating community, and 
Mr. Robert Jacksta of Customs and Border Protection at the Department 
of Homeland Security.
    Again, I thank our witnesses for their appearance today and look 
forward to their testimony.

    Mr. Cox. I thank the chairman, and I want to thank you 
first for holding this hearing.
    The Subcommittee on Economic Security, Infrastructure 
Protection, and Cybersecurity, as its name implies, is focused 
first on the need to balance the economic security of the 
nation with its physical security. One of the things that Osama 
bin Laden seeks to destroy is the American economy, we want to 
be sure that in our response to terrorism, we don't do that for 
him. The bill we are discussing today, H.R. 1509, the 
Recreational Boaters Streamlined Inspection Act, which is 
authored by our colleague from Florida, Mr. Foley, addresses 
one aspect of this profoundly important issue, how can we 
accommodate the ongoing needs of our American way of life and 
of our economy with the security needs of a post 9/11 world?
    It is now commonplace that the terrorist attack of 
September 11th forever altered our daily routines and our way 
of doing business, but while that is undoubtedly true, it 
should not mean that we cannot balance security requirements 
with the American way of life, the very way of life, after all, 
that Osama bin Laden seeks to destroy.
    The bill that we are examining today provides an 
opportunity to examine this issue in microcosm, it addresses 
the balance between entry requirements for U.S. citizens and 
the needs of recreational boaters. H.R. 1509 aims to facilitate 
the compliance of recreational boaters with existing Customs 
and Immigration inspection requirements, it doesn't change 
those requirements, rather, it would create a system of video 
conferencing units that U.S. citizens and legal permanent 
residents could use to remotely complete inspections upon their 
arrival at any one of 13 Florida marinas.
    Current policies call for boaters arriving in Florida to 
travel to the first official manport of entry to comply with 
entry requirements, in most cases, that is an airport. We have 
an opportunity and a responsibility to weigh the security value 
of requiring boaters to travel miles to an airport after 
docking the boat.
    I have a number of questions, Mr. Chairman, for our 
witnesses. I am looking very much forward to hearing both the 
merits and the demerits of this proposed legislation, but as I 
said at the outset, I think that this bill, in microcosm, 
offers us the opportunity to focus on this great question of 
whether we are going to change our way of life dramatically in 
order to accommodate security, or whether as we give Americans 
better security, we can't maintain and indeed perhaps improve 
our way of life.
    And I thank you, Mr. Chairman.
    Mr. Lungren. Thank you, Mr. Chairman.
    Other members of the Committee, you are reminded obviously 
that opening statements may be submitted for the record.
    Our witnesses today, again, are the Honorable Mark Foley, 
Congressman for Florida's 16th district and sponsor of the 
legislation; Mr. Jim Ellis, President of BOAT/U.S. an 
association for recreational boaters, and Mr. Robert Jacksta, 
the Executive Director for Border Security and Facilitation at 
U.S. Customs and Border Protection, Department of Homeland 
Security.
    Mr. Lungren. Let me just remind the witnesses that their 
entire written statement will appear in the record. And so that 
we might be able to get through questions and answers, we would 
ask that you strive to limit our oral testimony to the 5-minute 
period allotted. And first off, we would like to hear from the 
author of the legislation, Congressman Foley.

                  STATEMENT OF HON. MARK FOLEY

    Mr. Foley. Thank you, Mr. Chairman, Ranking Member Sanchez, 
Chairman Cox for this opportunity.
    Congressman Shaw, Congressman Kendrick and Don Manzullo are 
my co-sponsors--excuse my voice, I am having a little allergy 
attack--are my co-sponsors of this bill. And I think the debate 
that you were just having crystallizes the bill. It is an 
interesting situation we find ourselves in Florida; huge 
recreational boater industry. The Bahamas is 90 minutes by boat 
from our shores. What this legislation has required, the change 
has required, and you clearly enunciated it, that when a 
recreational boater comes back to the port with their boat, 
their trailer, their family, they then leave the marina, the 
dock, wherever they are, and are required to go to an airport 
where the Customs official is located and present themselves, 
including all passengers, for inspection by customs.
    What happens in Florida, regrettably, is that in the 
afternoon Sundays, when most boaters are returning from the 
islands, the Customs office is closed, so the boater has to 
then return on Monday morning and miss valuable work or school.
    Legitimate law-abiding citizens are trying their best to 
comply with the requirements of the law, but unfortunately, 
once again, we have devised a system that is only checking on 
the good, and ignores the bad. Osama bin Laden or a drug 
smuggler or a human smuggler is not going to comply with this 
regulation, they are going to come to our shores anyway.
    I understand the ranking member, Mrs. Sanchez's, concern 
about these video machines, and I don't want to defeat the 
purpose of my bill by suggesting I would settle for something 
else, but I want to prove to you I am willing, a simpler 
system. They used to do it, I believe, by phone, and they would 
check in and out by phone. Anything to help provide security, 
and at the same time provide comfort for our citizens I think 
is critically important.
    I told Chairman Cox the other day in conversation, a firm 
in my district came up with an impenetrable cockpit designed in 
1993. It would not have allowed bullets to be fired through, it 
would not have allowed entry, it had a design for a bathroom 
for the pilot separately access from the cockpit. You couldn't 
put smoke devices in or anything else. It included a camera in 
the cabin of the plane and one in the belly of the plane for 
the pilot to observe what was going on in this plane.
    The total package would have cost $10,000 per plane. The 
airlines rejected it out of hand because it was too expensive. 
Had we spent that $10,000, we would have prevented 9/11 from 
occurring because they never would have gotten to the cockpit. 
But instead, we spend hundreds and millions of dollars on 
airport security and other things that I don't think provides 
the level of security we need. This is one further example 
where, while we are attempting to control our borders and 
protect our citizens, we have done nothing more than frustrate 
and hamper the lives of average citizens.
    So rather than read the testimony, I would like to get to 
the questions and answers. I apologize to John Hildreth, who 
did many, many hours of work preparing these multitude of 
pages. But it really comes down to simple discussion on the 
merits of the current system; is it providing safety? Is it 
providing security? Does it make sense? I would welcome the 
chance not to install 13 kiosks with phone devices and 
videotape machines; I would love to save the taxpayers money, 
but unfortunately, it seems to be the only answer if homeland 
security insists on putting citizens through the ringer as they 
return from recreational boating.
    It has hampered our economy, it has hurt Bahamian travel to 
that island. And again, I want to strongly underscore, legal 
citizens are trying their best to comply, illegals and others 
simply aren't going to pay attention. So if the law is designed 
for security, then it has failed on its face miserably. Thank 
you.
    [The statement of Mr. Foley follows:]

                 Prepared Statement of Hon. Mark Foley

    Mr. Chairman and Members of the Subcommittee, I want to thank you 
for holding this hearing and for inviting me to testify in favor of 
H.R. 1509, the Recreational Boaters Streamlined Inspection Act.
    I am also pleased that Jim Ellis, President of BOAT/U.S., will be 
testifying in favor of the bill. This legislation is vital to the vast 
number of boaters in Florida who have been living under new, burdensome 
federal regulations when returning from so-called ``foreign ports'' or 
in vessels in international waters that may have visited a foreign 
port.
    Florida is a state with many recreational and charter boaters who 
frequently visit nearby places such as the Bahamas, which are 
considered foreign ports. Doing so, however, has become incredibly 
burdensome as a result of Department of Homeland Security (DHS) 
requirements put into force two years ago.
    Under on-going procedures, recreational and charter boat captains 
and their passengers returning from a foreign port still contact and 
clear themselves through customs by calling a hotline number. But under 
the DHS requirements, they also now must report in person to an 
immigration officer at a U.S. Port-of-Entry (POE) within 24 hours.
    This second requirement often means car rentals and long drives to 
the closest seaport or airport to wait in lines that often consume 
several hours. In addition, if the vessel returns when the immigration 
office is closed--which is usually the case for weekend boaters--both 
captain and crew must report the following morning. This often means 
missed work or school.
    The second requirement is a result of H.R. 2500, the Commerce, 
Justice, and State Department Appropriations Act for Fiscal Year 2002, 
which amended Section 231 of the Immigration and Nationality Act to 
require that all persons entering the United States ``shall present'' 
themselves to an immigration officer. This small provision, tucked into 
this enormous funding bill, presented the boating and charter community 
in my state with a stark contrast to the previous compliance regime.
    Prior to implementation of these new regulations in May of 2003, 
boat captains made one telephone call from the marina or from their 
home. They were briefly interviewed and cleared for entry or ordered to 
stay on their vessel with their passengers until an agent could come 
and inspect the vessel.
    Being forced under the new requirements to appear in person to 
often distant ports of entry has absolutely no impact on our overall 
efforts to tighten border security. In reality, only the law-abiding 
comply--when they do comply--and those wanting to harm us ignore the 
rules. No vessel carrying illegal aliens or contraband or terrorists 
will present themselves at an immigration office where they will face 
certain detention and arrest. This reporting requirement simply makes 
no sense.
    Moreover, it isn't just ordinary private citizens who are being 
burdened under this new system in Florida. The entire marine industry 
has suffered as people decide not to travel or charter to avoid the 
hassle. Many have moved their vessels to docks in the Bahamas and flown 
back and forth. The same applies to many seeking charter fishing 
services--opting to fly directly to the Bahamas and use a vessel docked 
there. When they fly back to the U.S., they clear immigration much 
easier and faster than by sea. This is inflicting serious harm on an 
entire segment of Florida's economy that provides dock slips, fuel, 
bait, maintenance, and other products and services to the boating 
community.
    While I strongly support, and my record reflects, the 
implementation of effective border controls, the government must use 
common sense in this process.
    My legislation would require the Department of Customs and Border 
Protection (CBP) to implement a system nearly identical to one that has 
proven to be effective in dealing with this same problem for boaters 
using the Great Lakes and St. Lawrence Seaway.
    H.R. 1509 would require Customs and Border Protection (CBP) to 
institute a system in Florida that uses videophones to satisfy CBP 
requirements for boaters returning to the United States. It would 
require that they install a videophone system at 13 (thirteen) maritime 
points-of-entry (POEs) in southeast Florida. The thirteen ports will be 
Sebastian Inlet, Fort Pierce Inlet, St. Lucie Inlet, Jupiter Inlet, 
Lake Worth Inlet, Boynton Inlet, Boca Raton Inlet, Hillsboro Inlet, 
Port Everglades Inlet, Bakers Haulover Inlet, Miami Harbor Inlet, 
Islamorada, and Key West. These locations were chosen because they are 
the only points of entry to Florida's inland waterways on over 200 
miles of coastline between Sebastian in the north and Miami to the 
south. The waters between Miami and Key West would be served by 
videophones at Islamorada and Key West.
    The purpose of the videophone system is to allow recreational and 
charter boaters and their passengers, who are also American citizens or 
lawful Permanent Residents of the United States, to satisfy BOTH the 
immigration and customs requirements of the Department of Homeland 
Security when returning to the United States from foreign ports or from 
international waters.
    As I mentioned earlier, this system will be modeled on the 
videophone system called OARS, or Outlying Area Reporting Station 
(OARS), which was developed as an alternative to requiring all American 
boaters on the Canadian border from reporting in person to an 
Immigration office when returning to an American port. The OARS program 
uses videophones, typically located at public marinas or state parks, 
which boaters may use to report to U.S. Customs and Border Protection 
(CBP) officers. Currently 35 OARS units have been deployed along our 
maritime border with Canada.
    These videophones transmit and receive both voice and video images 
over standard telephone lines and consists of a monitor, camera and 
telephone. Two videophones must be in use to place and receive video 
telephone calls. The videophones may be accessed 24 hours a day. Each 
phone has two cameras: one views the face of the traveler and the other 
reads the traveler's papers and identification. This allows the 
inspector to examine proof of citizenship and compare photo 
identification to the face of the traveler.
    The new system in Florida will allow Immigration and Customs 
inspectors to retain the option of requiring boaters and all passengers 
to wait for a customs inspection or visit the nearest Immigration 
office.
    Chairman Lungren, Ranking Member Sanchez, distinguished Members of 
the Subcommittee, I urge you to approve this legislation. Without it, 
law-abiding boaters in Florida are being forced to choose between non-
compliance and onerous regulations that contribute absolutely nothing 
to national security or stem the flow of illegal aliens, terrorists or 
drugs into South Florida. In fact, these regulations place a burden on 
DHS agents to clear these law-abiding people who have volunteered 
themselves for inspection when these same DHS agents could be 
interdicting at sea those who are intent on violating our laws.
    As a Floridian who has spent a lot of time on Florida's coastal and 
inland waterways, I can tell you that once a vessel with illegal cargo 
or persons enters a Florida inlet, it is virtually impossible for law 
enforcement officials to confront them. They blend into a maze of 
inland waterways, marinas, private docks and moving boat traffic. 
Vessels with illegal cargo must be confronted on the high seas and 
coastal waters well before they enter an inlet.
    My legislation leaves enough leeway for CBP to modify these 
videophones as technology progresses. Such advances may one day include 
biometric data such as fingerprints or iris scans. Thus, this system 
could be incorporated into any larger, nationwide system that might be 
implemented.
    There are nearly one million registered boaters in Florida who 
contribute $7.8 billion into our economy. Some have estimated that 
nearly 70 percent of Florida boaters ignore the new rules in order to 
avoid missed work or school.
    I urge you to approve this legislation and stop the practice of 
making outlaws out of these well-intentioned people.
    Thank you.

    Mr. Lungren. Thank you very much, Congressman Foley. And 
before I ask Mr. Ellis to speak, if there is no objection I 
want to enter into the record a statement submitted by 
Congressman Clay Shaw on this subject. And without objection, 
it is so ordered.
    [The information follows:]

         Statement For The Record of E. Clay Shaw, Jr. (FL-22)

    Chairman Lungren, Ranking Member Sanchez and Members of the 
Subcommittee, thank you for this opportunity to express my support for 
the Recreational Boaters Streamlined Inspection Act (H.R. 1509).
    I am concerned about the burdensome immigration and customs 
reporting regulations being required of boaters taking recreational 
trips to foreign ports. As you know, current federal policy enforced by 
the Department of Homeland Security (DHS) requires recreational boater 
captains and their passengers, returning from a foreign port, to 
contact and clear customs by calling a hotline number and to report in 
person to an immigration officer at a U.S. port-of-entry. The current 
regulations place an undue burden on law-abiding boaters in South 
Florida, who in most cases are taking day trips to The Bahamas on a 
family recreation day.
    In response to the concerns, Representative Mark Foley and I 
introduced the Recreational Boaters Streamlined Inspection Act (H.R. 
1509). H.R. 1509 would create an inspection program that uses 
videophone systems at certain points of entry in Florida to satisfy 
customs and immigration reporting requirements. The proposal would 
allow boaters to use videophones to show agents themselves, their 
passengers and their documents. It is modeled after a system used in 
Great Lakes states for boaters returning from Canada. The change would 
cover 13 ports of entry from Sebastian Inlet, north of Vero Beach, to 
Key West. I am committed to working with DHS and South Florida boaters 
to find a quick resolution to this process, and a long term solution 
that balances our security needs with common sense policies for our 
recreational boaters.
    As co-chairman of the Congressional Boating Caucus, I certainly 
understand the impact these issues have on recreational boaters. I am 
committed to working with DHS, the Members of the Subcommittee and 
South Florida boaters to find a quick resolution to this process, and a 
long term solution that balances our security needs with common sense 
policies for our recreational boaters. Thank you for your time.

    Mr. Lungren. Now, Mr. Jim Ellis, President of BOAT/U.S.

 STATEMENT OF JIM ELLIS, PRESIDENT, BOAT OWNERS ASSOCIATION OF 
                       THE UNITED STATES

    Mr. Ellis. Thank you, Mr. Chairman and members of the 
committee. I am Jim Ellis, President of Boat Owners Association 
in the United States. I am pleased to be here today 
representing more than 590,000 BOAT/U.S. members who are 
recreational boaters, and include over 113,000 of whom reside 
in Florida, where one out of every seven registered boaters is 
a BOAT/U.S. member.
    Since it has been entered into the record, I will try and 
summarize my statement today by going directly to my personal 
experiences with this entry procedure.
    I had the opportunity, Mr. Chairman, to experience the 
immigration process myself when my wife and I returned from a 
trip to the Bahamas in 2003. We left West End Bahama and 
returned to Lake Worth Inlet in West Palm Beach on our trawler.
    Upon arrival at the marina, we called U.S. Customs, and 
after a brief and pleasant conversation, we were cleared 
through Customs. However, the Customs officer informed us that 
we needed, at that point in time, we needed to also clear 
through Immigration as well. After several phone calls and 
waiting on hold for a while--it seemed like about an hour--we 
finally got through to an immigration officer who informed us 
that we needed, according to the law, to present ourselves in 
person at the West Palm Beach Airport. So we managed to get a 
cab at that point in time and travel the 4 miles over to the 
airport and tried to locate the Immigration Office, but were 
unsuccessful in doing so once we got to the airport because 
actually after another phone call we were informed that it was 
at the private aviation terminal at the back side of the 
airport.
    The cab driver had no idea at that point exactly where that 
was, and frankly was very nervous about going to the 
Immigration Office to begin with, but did agree to take us over 
there as long as he could wait a half a block away. 
Nevertheless, we finally arrived at a somewhat poorly marked 
concrete building with no windows and a speaker out in front, 
which we pressed the button nervously, but a very nice, 
congenial officer came out, eventually appeared and took our 
passports and asked if we would wait outside, disappeared for 
only about 10 minutes, returned our passports, said that he had 
entered them dutifully into the computer, but since there are 
no cabs at that end of the airport we had to have our cab 
driver wait for us.
    And we made it back, eventually, to the marina, and about a 
$25, $30 cab fare to get roundtrip and the wait. By the time we 
had returned, it end up taking us about a half a day to 
actually go through the entire check in procedure.
    To put this tale in context, we had gone to the Bahamas on 
an organized trip of 25 boats. The instructions for clearing 
back in described in some of the materials our organizer had 
given us were accurate, but even so about half of the boats 
that we spoke to after the trip did not comply with the 
clearing in process, some gave up after repeated phone calls 
that they couldn't get through, others checked in with 
immigration, but did not bring everyone to the immigration 
office as required. Some didn't want the expense of a cab ride 
when they came into some other ports other than West Palm and 
found that it was going to be $50 or more for them to actually 
get a cab; and still others had come back a couple of days 
later, and on a Sunday, and found that the office was not open. 
And since they were headed back up the east coast and expected 
to be on their way immediately, they simply did not check in.
    In our case, we complied as timely--in as timely a manner 
as possible. We had spent several hours wandering around south 
Florida before getting to the government's official stamp of 
clearing in. Had we had any intention to do anything illegal, 
certainly there was plenty of time and opportunity to do so 
along the way to the immigration office.
    It is our belief that any system that requires checking in 
of recreational boaters coming into this country, especially in 
south Florida, will have to end up being a voluntary one. And 
it only makes sense for us to come up with a system that 
encourages compliance. The current system does not encourage 
compliance. And we would be far better off with the system that 
is recommended in H.R. 1509 for getting recreational boaters to 
comply with their legal responsibilities in clearing back into 
this country.
    I would be glad to entertain any questions. Thank you.
    Mr. Lungren. Thank you very much, Mr. Ellis.
    [The statement of Mr. Ellis follows:]

                   Prepared of Statement of Jim Ellis

    Mr. Chairman and members of the committee, I am Jim Ellis, 
President of Boat Owners Association of the United States. I am pleased 
to be here today representing more that 590,000 BOAT/U.S. members who 
are recreational boat owners, including over 113,000 of whom reside in 
Florida where one out of every seven boat owners is a BOAT/U.S. member.
    Many of those boaters live in southeastern Florida and cruise to 
the islands of the Bahamas, only to find it difficult to check in with 
U.S. Customs upon their return. Congressmen Mark Foley and Clay Shaw 
have been searching for a solution to this problem for the past few 
years and BOAT/U.S. believes that the provisions of H.R. 1509 will ease 
the burden for Florida boaters when reporting in to U.S. authorities at 
various Florida ports.
    Mr. Chairman, I had the opportunity to experience the immigration 
process myself, when my wife and I returned from a trip to the Bahamas 
in 2003. We left West End Bahamas and returned to West Palm Beach on 
our trawler. Upon arrival at the marina we called U.S. Customs and 
after a brief wait and pleasant conversation were cleared through 
Customs. However, the Customs officer informed us we needed to call 
Immigration and clear through them as well. We called several times and 
after waiting on hold for what seemed like an hour we finally got 
through to an officer who informed us we needed to present ourselves in 
person at the West Palm Beach airport.
    We called a cab and made our way the four miles to the airport but 
couldn't locate the Immigration office. After another phone call we 
were informed that it was located it was at the private aviation 
terminal in the back of the airport. The cab driver had no idea how to 
get there and seemed nervous about going to the Immigration office 
anyway. Nevertheless, we finally arrived at a poorly marked concrete 
building with no windows and pressed a speaker button. A very nice 
officer eventually appeared, took our passports and asked us to wait 
outside. He disappeared for ten minutes and then reappeared to return 
our passports. Since there were no cabs in that part of the airport we 
had to have our cab wait for us. The round trip fare was about $25. By 
the time we returned to the boat, a half day had been used up 
completing this procedure.
    To put this tale into context, we had gone to the Bahamas on an 
organized trip of 25 boats. The instructions for clearing back in were 
described in some materials the organizers had given us, but even so, 
about half of the other boaters we spoke with after the trip did not 
clear back in with Immigration. Some gave up after repeated phone 
calls; others checked in with Immigration but did not bring everyone 
who was aboard their vessel and others, who returned to different 
ports, did not want to go to the time or the expense of a long cab ride 
to an airport miles from port. Still others who returned from the 
Bahamas on Sunday did not check in because some Immigration offices are 
not open on Sundays. In these cases, taking a Monday off from work to 
report to Immigration or delaying a flight out with the added expense 
of an overnight hotel stay was just too much.
    In our case, where we complied in as timely a manner as possible, 
we had to spend several hours wandering around south Florida before 
getting the government's official stamp of approval to clear in. Had we 
intended anything illegal there was plenty of time and opportunity 
along the way to the Immigration office.
    Mr. Chairman, the current method of enforcing this regulation is 
inconvenient, inadequate and inefficient Law abiding American citizens 
are turned into scofflaws by a system that has not changed to meet the 
needs of the times. Instead of turning law abiding citizens into 
criminals, we should embrace new or existing technologies, such as that 
recommended by H.R. 1509, that will get the job done in less time and 
less expense.
    Consider the billions of dollars the Department of Homeland 
Security has spent on getting the latest technology for our nation's 
airports. They are installing iris-scan readers to identify passengers 
and recently unveiled a scanner that can see through a person's outer 
garments. They have readers that measure the unique geometry of a 
person's hand to protect the baggage handling area, with motion-
tracking video systems to keep unauthorized people from entering the 
area. Even our highway's borders have adapted new technology with their 
NEXUS and SENTRI programs that speed vehicles through Customs 
checkpoints.
    Unfortunately, very little has been spent on technology to secure 
the thousands of miles of our coastal waters. Certainly, there must be 
a way to leverage some of the technological advances in aviation to 
make our coastlines more secure while at the same time simplifying a 
boater's reporting procedure.
    The ``Recreational Boaters Streamlined Inspection Act'' offers a 
practical way for recreational boaters to report back to customs 
officials after visiting the Bahamas, as well as other Caribbean 
islands. H.R. 1509 requires the Department Homeland Security to 
establish a program allowing boaters returning from outside the U.S. to 
use videophones at a number of Florida marinas and public docks. This 
plan has worked successfully in the Great Lakes for a number of years. 
Recreational boaters returning from visiting Canada simply pick up a 
videophone and complete the necessary verification in a matter of 
minutes. In fact, videophones have been so successful in the Great 
Lakes that they are now installed at over 30 locations from New York to 
Minnesota.
    Recreational boaters are needed as eyes and ears on the water in 
our quest to make our homeland secure. Meaningless regulations and low 
compliance destroy the governments creditably and do nothing for 
homeland security.
    While the government's reorganization combining Customs and 
Immigration into one Customs and Border Protection office is a step in 
the right direction, it still does not solve the problem of requiring a 
law abiding citizen to find a cab and travel miles to report into a 
government office in person. There has to be a simplier way for the 
government to protect our borders and at the same time enable law 
abiding citizens who pose no threat to obey the law.
    I commend the committee for holding this hearing on H.R. 1509 and 
urge you to approve it this year so that 13 south Florida locations can 
have videophones installed in early 2006. Again, thank you for this 
holding hearing. I am happy to respond to any questions that you might 
have.

    Mr. Lungren. Mr. Robert Jacksta, the Executive Director For 
Border Security and Facilitation at the U.S. Customs and Border 
Protection Department of Homeland Security.

                  STATEMENT OF ROBERT JACKSTA

    Mr. Jacksta. Good afternoon, Chairman Lungren, Chairman 
Cox, Ranking Member Sanchez, and distinguished members.
    I am honored to appear before you today to discuss U.S. 
Customs and Border Protection's efforts to improve and 
streamline the reporting process for travelers who enter the 
United States by small pleasure crafts.
    CBP's Office of Field Operation works closely with our 
border patrol and air and marine officers to ensure coverage 
and reporting of all small boat travellers. We are also working 
with the U.S. Coast Guard and State and local law enforcement 
officers to provide coverage and report suspicious marina 
activities. In addition, CBP field officers conduct special 
outreach with marinas and attend local boat shows in order to 
advise boaters of our reporting requirements. And finally, CBP 
field officers have developed special enforcement operations to 
ensure targeted high-risk areas of vulnerability.
    As you know, CBP is a new agency bringing together the 
authorities of Customs and Immigration. Title 8 United States 
Code requires that every applicant for admission to or transit 
to the United States must be inspected by a CBP officer. The 
implementing regulation requires that every application for 
entry into the United States must be made in person to an 
officer at a port of entry at a time when the POE is open. A 
person claiming to be a U.S. citizen must establish the fact to 
the examining officer's satisfaction.
    Title 19 requires that the master of a vessel report 
immediately upon arrival at the nearest facility or designated 
place. The implementing regulations, Title 19, require boaters 
to immediately report their arrival by any means of 
communication approved by the agency.
    Pleasure boaters are required to comply with these 
reporting requirements. Boat masters, family members and all 
guest entering the United states must report for inspection. 
Inspection may be obtained in one of three methods. On the 
northern border, boaters must be in possession of a pre-
approved I-68 form, or a NEXUS number, or they can utilize an 
outlying area reporting stations, ORES. And for all other 
arrivals, boaters must physically report for inspection to the 
nearest open port of entry.
    As mentioned, the alternative inspection programs are 
available for those travelers by boat along the northern 
border, specifically the I-68 Canadian boat landing program 
will be continued this year. Under the form I-68 program 
applicants for admission into the United States by small 
pleasure boats are inspected and issued a single boating permit 
for the entire boating season. Each applicant must appear in 
person for inspection, interview and various other law 
enforcement checks. The fees are $16 for an individual, or $32 
for a family; the same as last year.
    If approved, the I-68 will bear the photograph and 
fingerprint of the applicant. The I-68 permits boaters, allows 
the boaters to enter the United States from Canada for 
recreational purposes with only the need to report to CBP for 
further inspection by placing a phone call to report their 
arrival.
    These persons eligible for the I-68 who are enrolled in any 
other alternative program, such as NEXUS, may enter the United 
States by pleasure boat reporting without obtaining an I-68 
form. Boaters on the northern border not in possession of a 
valid form I-68 or proof of enrollment in NEXUS must either 
report in person for inspection at a port of entry, or utilize 
the outlying reporting system, or its video phones.
    The OARS program was established to simplify reporting 
requirements for boaters who are members of the Registered 
Travelers programs, such as I-68 or NEXUS. In addition, it 
allows them to call up without being members of those programs 
to be cleared. Under the OARS program, video phones installed 
at public marinas along the Canadian borders provide an 
automated inspection service, enabling a two-way visual and 
audio communication between the CBP officer and the applicant 
for admission.
    Whichever program is used, each small boat arrival is 
tracked in our CBP pleasure boat reporting system within our 
tech system. Any person that does not comply with these 
procedures may be subject to adverse actions under the 
provisions of the INA, and may be subject to a penalty as well 
under the Customs Authority.
    While OARS may be a potential solution for the Miami area, 
CBP is not opposed to OARS as an alternative means of 
reporting. CBP is currently developing a strategy or method to 
secure the borders and the small boat program, but as well as 
looking at other alternatives. This strategy will identify key 
locations where remote reporting is beneficial to the public. 
CBP will determine these key locations based on risk factors 
associated with securing our Nation's waterways. The discretion 
and the decision to decide on where to place these remote 
reporting processes must remain with CBP, rather than fix it at 
a predetermined location.
    CBP must be able to maneuver or relocate to more 
operational feasible areas based on resources and/or potential 
risk factors. In addition, CBP needs to explore technology that 
includes not only a video phone, but a system to read travel 
documents, and to receive biometrics.
    In summary, CBP is continuing to explore new solutions for 
small boat reporting in low traffic areas in conjunction with a 
trusted traveler program; however, the large volume of pleasure 
boat traffic in the Florida area, the smuggling and migrant 
threat, all create additional challenges to CBP.
    Chairman thank you again for the opportunity to testify 
today. I will be happy to answer any questions if you have any.
    [The statement of Mr. Jacksta follows:]

                  Prepared Statement of Robert Jacksta

    Chairman Lungren and Members of the Subcommittee, thank you for 
this opportunity to testify. I am Robert Jacksta, Executive Director 
for Border Security and Facilitation, Office of Field Operations. I 
would like to discuss the efforts of the U.S. Customs and Border 
Protection (CBP) regarding the process of improving and streamlining 
the reporting processes for travelers who enter the United States by 
small pleasure craft.
    The Outlying Area Reporting Station (OARS) was implemented in 
remote areas along the Northern border to facilitate compliance with 
statutory and regulatory reporting requirements. The OARS videophones 
allow the master of a small boat to call into a CBP monitoring site and 
establish a video feed (face-to-face reporting) to report arrival into 
the United States and make an oral declaration. The OARS program was 
established to simplify reporting requirements for boaters who were not 
members of a Registered Traveler Program such as the Small Boat Landing 
Permit (I-68) or a Port Pass (northern border).
    The current authorized procedure for small boat reporting under 19 
USC 1433 requires the master of the vessel to report the arrival at the 
nearest customs facility or such other place as the Secretary may 
prescribe by regulations. These reports are tracked in the Pleasure 
Boat Reporting System within the Treasury Enforcement Communications 
System (TECS). Pursuant to 8 CFR 235.1, an application to lawfully 
enter the United States must be made in person to an immigration 
officer at a U.S. port-of-entry when the port is open for inspection. 
For the northern border only, alternatives to the regulatory face-to-
face reporting requirement are the Canadian Border Boat Landing Permit 
(I-68) that is issued seasonally to qualified small boat operators and 
the ``Port Pass'' enrollment. The I-68 satisfies the boat operator's 
legal requirement to report to a port-of-entry for face-to-face 
inspection in accordance with 8 CFR 235.1, but a phone in arrival is 
still required to satisfy 19 USC 1433. Port Pass is an alternative 
inspection program for Registered Travelers, such as NEXUS.
    OARS could be an optional method of reporting entry for boaters who 
are not participants in the I-68 or any other Registered Traveler 
Program. However, while the OARS system is effective along the Northern 
Border, CBP cautions that, due to the large number of boaters along the 
Florida coast, OARS may not be able to handle the volume of calls. In 
some cases along the Northern Border, even with a relatively small 
amount of boaters utilizing the OARS phones, boaters have experienced 
unusually long waits connecting with CBP monitoring sites.
    While OARS may be a potential solution, and CBP is not opposed to 
OARS as an alternative means of reporting, CBP is currently developing 
a strategy on secure remote reporting process for low-risk boaters. The 
strategy will identify key locations where remote reporting is 
beneficial to the public. CBP will determine these key locations based 
on risk factors associated with securing our Nation's waterways. The 
discretion to site the remote reporting process, rather than fix it at 
pre-determined locations, is essential. CBP must be able to maneuver 
and/or relocate to more operationally feasible areas based on resources 
and or potential risk factors.
    Similarly, program eligibility will impact the remote reporting 
process. Although U.S. citizens and Lawful Permanent Residence are 
considered low risk (as indicated in OARS draft), CBP seeks to expand 
the program to all low-risk travelers (non U.S. citizens), as part of a 
Registered Traveler Program, to develop expeditious and secure cross 
border travel.
    In summary, the OARS program is a viable solution for small boat 
reporting in low traffic areas, in conjunction with a trusted traveler 
program. The large volumes of pleasure boat traffic in the Florida 
area, however, would likely overwhelm the OARS system. CBP is 
developing a strategy to expand the Registered Traveler Program 
nationwide to simplify the reporting process while meeting the 
reporting requirements.
    Thank you again, Chairman Lungren and members of the Sub-Committee, 
for giving U.S. Customs and Border Protection this opportunity to 
testify. I would be happy to answer any questions you may have.

    Mr. Lungren. Thank you very much for your testimony. And I 
will recognize myself for 5 minutes to begin this round of 
questioning.
    Mr. Jacksta, you indicated certainly some flexibility in 
the program that already exists with respect to the northern 
border, and it sounds like you are suggesting, on behalf of the 
Department, that there is a view towards flexibility with the 
problem articulated by the other members of the panel. Do I 
read you correctly?
    Mr. Jacksta. That is correct, sir. What we are looking at 
right now--we had a group come in this week, members from 
Blaine, Washington, from the Miami area, from the Boston area 
to take a look at our small boat program and to determine what 
is the best way to move forward. Obviously we think there are a 
couple of opportunities for us to move forward. First of all, 
we believe a trusted traveller or a Registered Traveller 
program would help the situation with the small boaters by 
allowing them to register, preregister, when they arrive back 
in their boat, be able to call up and we can verify that it is 
that individual and have them cleared.
    We are also looking at the whole issue of the OARS and the 
capabilities of that system. And specifically, as we look at 
the northern border, it is a system that has been out there 
since about 1997. We think that it has capabilities, but we 
probably have to took at the technology and see if we can 
improve it to bring it up to today's standards. And one of the 
things that we would want to look at is maybe having additional 
cameras in the area to view the area, the total marine area, 
take a look at whether we can place biometrics at these 
locations so we can verify the biometrics of the individuals 
that would be coming back. So we think there is opportunities 
here, and we are looking at that.
    We are also looking at the issue of the authorities to have 
a trusted traveller program down in the Florida area. The 
regulations and the law currently limits it to the northern 
border or southern land border locations. So we think there are 
some things we need to do to look at it to address the concerns 
that are being raised by various members.
    Mr. Lungren. I noted in your prepared testimony as well as 
the testimony that was given that you indicate that the much 
greater volume of boat traffic in Florida versus the northern 
border might make it problemic or make it more difficult to 
implement an OARS program or something similar to that. Let me 
take the other side of that argument. Isn't the fact that you 
have such a high volume in the Florida areas--and having heard 
the testimony of the first two gentlemen which suggest that 
there is probably a lot of lack of compliance, not because 
people don't to want follow the law, but just because there is 
an inconvenience--wouldn't that suggest that perhaps the best 
place for the use of technology, including OARS--by itself or 
in conjunction with the other things you have talked about--
would be Florida, that is, you probably have a lot more people 
slipping through the system down there than you do in the 
northern part of the country right now.
    Mr. Jacksta. We understand that the traffic down in the 
Miami area is very high. I can tell you that based on 
statistics, it is probably right up there with the Washington 
area, Blaine, Washington area, Seattle area where there is a 
lot of small boaters that come across the northern border up 
there.
    Clearly we recognize that the Miami area has a concern or 
threat. We have problems with that area being utilized by 
narcotic smugglers, as well as individuals who are smuggling 
individuals. We think that the Florida area gives us the 
opportunity for those people who are in compliance, who want to 
be in compliance, to give them an opportunity we think we 
should look at and explore the Trusted Traveler program as well 
as the OARS program for that area.
    Mr. Lungren. Congressman Foley, how do you react to the 
testimony you heard?
    Mr. Foley. Well, I am very delighted that there is an 
effort underway; I was unaware of it. And I have written the 
agency repeatedly asking for some details of some hope and 
opportunity, so I welcome looking at a better system, because I 
believe in my heart one can be designed that both offers 
flexibility and security.
    My question would be, obviously, is, from the gentleman 
from the agency, do you think the requirements for an 
individual to report in person to an immigration officer have 
been a success?
    Mr. Jacksta. Yes, sir, I think so. I think there is a 
requirement to make sure that people who are arriving in the 
United States are in compliance with our law. There are 
obviously people who have--good citizens who make that extra 
effort, an example of that is Mr. Ellis, and we appreciate 
that. And that is what we expect of all travelers coming in.
    What we also recognize is that we have to make it as easy 
as possible and give the opportunity for those travelers to 
report. And I would be the first one to admit that taking a cab 
for 3 hours or going down there is a concern. So that is why we 
are looking at this, how can we explore better ways of 
addressing those people who want to be in compliance.
    Those people who are not in compliance, that is where we 
have our enforcement efforts, that is where we work closely 
with the State and locals, with the Coast Guard and border 
patrol, our air and marine units to identify those people who 
are coming back.
    Mr. Foley. Mr. Chairman, I apologize for turning a question 
to him.
    Mr. Lungren. No, that is just fine. I would rather have 
that so we have an exchange of ideas.
    I would just say that--well, before I recognize the Ranking 
Member--that Mr. Ellis mentioned one of the times he returned 
to Florida where he made this extra effort. I am not going to 
ask about all the other times.
    Mr. Foley. Mr. Chairman, the one question I probably would 
have for the agency is how many illegal aliens have presented 
themselves? I guess that is the fundamental question.
    Mr. Lungren. Not the ones with Ph.Ds probably.
    Mr. Foley. What is the purpose? And not that it is about 
illegals, it is about protecting the borders.
    Mr. Lungren. Well, the other question is, what are we doing 
to put unnecessary burdens on those who are most likely to 
follow the law? And to the extent we put money and effort into 
that, are we wasting that money that could be directed 
elsewhere? And we are looking at that all through this. And it 
is not an easy question, and I am not trying to suggest that 
the Department is not doing a genuine effort, but we have got 
to look at what is actually effective. And now 5 minutes--I 
recognize the gentlelady from California, the Ranking Member 
for 5 minutes.
    Mr. Sanchez. Thank you, Mr. Chairman.
    You know, I represent an area, along with Mr. Cox, Orange 
County, California, one of the wealthiest areas in the Nation, 
and there have been plenty of times where I have got--we have 
the highest general aviation coming out of our airport there, 
John Wayne Airport. And there are plenty of times when I get on 
a plane and I go over to Mexico or someplace, and on the way 
back, we have to make a stop in Brown Airfield to get checked 
by Customs and Immigration and everything.
    It is a pretty laborious process, it takes time to come 
down, it takes time to get up, it costs money to do that. And 
there are plenty of people who say all the time, we would pay 
extra if you would put somebody to check us at John Wayne 
Airport. We have never done that.
    I just wonder, Mr. Jacksta, what would it take to have 
something closer to a port, a water port of entry in Miami or 
Palm Beach or something? And could we not maybe do that by 
charging more to people who go through that process rather than 
have them do what Mr. Ellis did, which was to take a $40 cab 
ride back and forth and half the day of his time--I am sure his 
time is worth a lot of money, especially when you are a 
recreational boater. Have we looked at those figures or those 
numbers to see what we could do with respect to that?
    Mr. Jacksta. Well, Congresswoman, let me start off by 
indicating that currently small boats, 30-foot boats or bigger, 
require a user fee, it is a very minimal fee, it is about $25 
per vessel for an entire season with that, so there is not much 
revenue coming in that way.
    What is our concern, and something that we are always 
challenged with, is exactly how many places small boats can 
arrive at at a port of entry. Take, for example, the Miami 
area, I might be off by a couple, but there are something like 
50 marinas right in an area when you come into that Miami area. 
So the question comes down to, first of all, where would you 
put that system that you want to put out there, do we put it in 
a public park area, do we put it on one of the marinas? The 
question comes down to is that we don't have enough resources 
to put our officers at every marina to be ready and available 
to respond to every type of phone call that comes in at all 
different hours.
    So the challenge of the program is that we are trying to 
make it so that people who are trusted, people who are in 
compliance have the opportunity to report their arrival, be 
cleared, and be sent on their way. But the private boat program 
does have a lot of challenges. We have not looked at 
specifically reporting--or putting a proposal to report to 
specific locations simply because of the concerns that would 
clearly come up if we pinpoint specific areas.
    Mr. Sanchez. Mr. Ellis, do you think that would be inviting 
in any way to someone like you?
    Mr. Ellis. Congresswoman, it could; however, I also see it 
as being a very significant expense.
    One of the problems that exists, as Mr. Jacksta pointed 
out, is that the number of ports or marinas far outnumber the 
number of general aviation airports that are out there where 
you have a concentration of planes. Also, where the average 
recreational plane might be a $100,000 investment, the average 
recreational boat in this country is 16 feet in length, and 
probably represents a couple of thousand dollar investment. And 
some boats at 18 feet are regularly transiting between the U.S. 
and the Bahamas. I understand that here in Washington my $25 
cab right got to be a $40 cab ride within a half an hour. But 
the $25 user fee for the 18 foot owner out there is actually a 
pretty significant amount of money they are putting out to 
begin with.
    Mr. Sanchez. $25 a year?
    Mr. Ellis. Yes, annual fee of $25 a year, which is about 
equal to what they pay the State of Florida to register their 
vessel in the State of Florida.
    And I guess what I am trying to point out is that 
recreational boaters, over 12 million registered recreational 
boaters in the U.S., are not, as an average, a wealthy group. 
Certainly there are wealthy individuals where $25 would not 
make any difference to, but there are a number of them out 
there that are very concerned about the cost.
    Mr. Sanchez. Mr. Jacksta, one of the briefings that you 
brought up with your staff was the technology that H.R. 1509 
would mandate. In that briefing, you mention that you believe 
that equipment would have a biometric component and document 
scanning capability. Does technology like that exist today? Is 
it being used on the northern border? And what type of 
biometrics requirement would CBP like boaters to use?
    Mr. Jacksta. The issue of equipment, currently the 
equipment on the northern border, is for the most part very 
basic equipment, it is a video phone, it has a camera, it has a 
document camera to view the documents. It also gives the 
capability for the officer and the traveler to see each other.
    What we are looking at--and that is technology that has 
basically been out there for the last 5 years. What we would 
like to do is if we were going to move forward with the next 
level, we want to improve on the security features and the 
capabilities of the system. First of all, we would like to have 
a system that might be able to read the documents that the 
person is presenting. For example, if they have a machine 
readable passport, we would like to be able to query that and 
use that; that allows us for a better security feature. We 
would also like to have the better cameras so that we can have 
a better view of the area and actually a better view of the 
traveler himself or herself.
    We would also like to take a look and utilize biometrics. 
And why we would want to use biometrics, if we did have a 
trusted traveller program and someone called up and said I am 
Bob Jacksta, here is my fingerprint, we could verify it with 
the--we would verify it with the record that we had when the 
person actually registered in the program, once again, to 
validate that that is the person that is in front of us, and 
that there isn't any threat.
    We would also be able to utilize that system to help us 
with the whole process of registering people who might be 
coming in under the U.S. VISIT side of the House. The current 
requirement is if you are a nonimmigrant visiting the United 
States, you have to be cleared through the U.S. VISIT process 
at airports and at most of our major seaports. We would like to 
bring those capabilities to any type of video phone or OARS 
process system in the future.
    So we believe, if we are going to put a system out there, 
that we should have the best technology to be able to do the 
job the right way, and allow us, when we say to that person, go 
on, it would fulfill the legal obligations.
    Mr. Sanchez. Thank you. Thank you, Mr. Chairman.
    Mr. Lungren. The gentlelady's time has expired. The 
gentleman from California is recognized for 5 minutes.
    Mr. Cox. Thank you, Mr. Chairman.
    I am going to come at this from the other direction. Most 
of the discussion has been focused on how we can relieve the 
burden for beleaguered vacationers; I want to come at it from 
the homeland security standpoint, from the counterterrorism 
standpoint.
    This requirement that is being complained of by the author 
of the legislation didn't exist before 9/11; is that right?
    Mr. Jacksta. The capabilities to be cleared by the OARS 
system, sir?
    Mr. Cox. No, no, no. The requirement that the master of the 
vessel report in person to a physical facility such as an 
airport, that didn't exist before 9/11; is that correct?
    Mr. Jacksta. The authority existed, sir, from my 
understanding--.
    Mr. Cox. I just wondered whether the procedure and the 
requirement existed before 9/11.
    Mr. Jacksta. The procedure did not exist, sir.
    Mr. Cox. Okay. So I think it is safe to infer that, since 
we had immigration policy concerns pre-9/11, we had Customs 
revenue concerns pre-9/11, that the difference was 9/11, that 
we have put these provisions in force because we have a 
counterterrorism purpose. I want to see now whether we are 
getting anywhere with our counterterrorism measures.
    In your view, does the system that is in place present a 
hurdle to terrorists? Do you believe or does IA at the 
Department of Homeland Security believe that there is any 
scenario in which terrorists would present themselves 
voluntarily to this system?
    Mr. Jacksta. Sir, I think that there is a reporting 
requirement for people arriving to report--.
    Mr. Cox. I understand there is a bureaucratic requirement. 
What I want to know is whether there is, in the IA office at 
the Department of Homeland Security, an assessment that 
terrorists would ever present themselves voluntarily in this 
reporting system.
    Mr. Jacksta. I can't speak for IA, sir.
    Mr. Cox. You are unaware of any IA input into this?
    Mr. Jacksta. My understanding is that it is, in our view, 
the best interest of the U.S. Government to register, have 
people come in--.
    Mr. Cox. Let me ask the question very simply then. Is there 
any IA put into this requirement?
    Mr. Jacksta. Not that I know, sir.
    Mr. Cox. Let me ask the next question. Do you know whether 
or not anyone on a terrorist watch list has ever presented 
themselves voluntarily in this system? Has it ever happened?
    Mr. Jacksta. I know of no example, sir.
    Mr. Cox. And would you--I am going to ask a question that 
you can answer any way that you feel comfortable, because I am 
not really asking for DHS policy, but I am just going to ask 
you to reason with us here. Do you think that somebody who was 
part of an Al-Qa`ida cell or someone who was like-minded, a 
terrorist bent on doing injury to the American territory of 
people, would ever voluntarily go out of their way, by hours 
and miles, to check in in this system?
    Mr. Jacksta. I would think that it would be very unusual, 
unless they had--.
    Mr. Cox. I think so, too. So I think we should write off 
any counterterrorism value to these procedures that have been 
put in place post 9/11. And if that is the case, we would ask 
two questions; first, is there something else that we can do 
that would have better counterterrorism return? And second, if 
we are willing to write off--as apparently we have with the 
system in place--any counterterrorism value, shouldn't we just 
focus on the Customs and Immigration pieces of this, and in as 
much as both of those require maximum voluntarily compliance, 
shouldn't we make the system as easy as possible?
    If we are going to jump to the second question, I want to 
ask whether you might imagine something even more significantly 
different than what presently we do that is what is in Mr. 
Foley's bill? I have been listening during this hearing and 
wondering why it is, if we want to make this system efficient 
and usable for travelers, and we want to collect as much in the 
way of Customs revenues as we possibly can, and we want to 
encourage that person who is coming here, maybe legally, maybe 
illegally, to, when they are thinking about should I check in 
with immigration to do so, if they have any possibility of 
doing so, why wouldn't we decentralize it all together and say 
that you have got to check in by cell phone? Just call. Why 
wouldn't we go to that system, instead of building stations and 
so on, to maximize the amount of people that would voluntarily 
comply if all we are after is the Customs benefit and the 
Immigration benefit?
    Mr. Jacksta. Well, I think that, sir, in all honesty, there 
is certain requirements from the Customs side, which is the 
requirement to make sure that people are in compliance, that 
they are not bringing in anything that is illegal, anything 
that might be of concern. Some travellers might not know that 
until actually getting questioned by an officer. But from the 
Immigration side of the house, I think there is a clear 
responsibility to make sure that individuals who are coming in 
are in compliance with the INA law. And specifically, if you 
are visiting the United States, that you are eligible to be 
entered into the United States.
    Mr. Cox. Well, that is a fair point. The paradigm that Mr. 
Foley outlined for us is a U.S. group of people vacationing for 
the weekend. If we start with that universe of people, might we 
not have a requirement that kicks in when they are leaving the 
marina, and then if they don't call back we will know we have a 
problem?
    Mr. Jacksta. That is exactly what we would like to do, sir. 
We would like to get people to register in the program, and 
that registration process might start before they even leave. 
Maybe they know they are going to take a trip, they might want 
to take a trip down to the Customs Office--.
    Mr. Cox. May they could do it by the Web, by Internet, 
print the out the forms in PDF and do whatever they can over 
the Internet so we wouldn't have to have all of these physical 
locations. And then if they don't check back in when they 
return, it is sort of like a flight plan, if they don't come 
back ever, we will know we have a problem.
    Mr. Jacksta. I mean, that is what we are looking at, sir, 
and that is exactly what the group came up. I mean, the people 
that we had in from the field are familiar with the issues, and 
trying to build the best way possible for people to be in 
compliance. And there are a lot of opportunities.
    Mr. Cox. Mr. Chairman, my time is expired. If there is an 
opportunity for a second round, I would like to get back to the 
counterterrorism question and ask if there is something that we 
can do better to fulfill that mission.
    Mr. Linder. I will yield my time.
    Mr. Lungren. You have got 5 minutes, and you have yielded.
    Mr. Cox. Well, in that case, let me ask the question. If 
our purpose were to find people--and this is a big problem, as 
you know, I mean, it's a problem not just Florida, it is a 
problem along thousands of miles in our border, it is a problem 
certainly in the Caribbean, it is a problem in the Virgin 
Islands, it is a problem virtually uniformly on our maritime 
borders.
    You know, in our other subcommittee, which Chairman Linder 
is responsible for, we were looking at the problem of nuclear 
attack against the United States. If someone were going to 
import fissar material, one of the leading scenarios is they 
would bring it in a row boat or they would bring it in a power 
boat. But they are not going to come through a radiation portal 
monitor in San Diego or New York, they are going to show up on 
our shores, probably; or maybe they will bring it in a 4x4 
across the Canadian border or what have you. But they are going 
to do it someplace that is away from what we are looking at, 
and they might do it in a boat. So this is serious stuff. We 
would like to look for terrorists on our shores, how can we do 
it?
    Mr. Jacksta. Well, I think, sir, that it looks--to have a 
proper strategy we need to make sure that we are all working 
together. I would like the committee to know that there is 
clearly good cooperation taking place at the ports of entry, 
and that the whole process of our air and marine, where we have 
boats, close to 60 boats out there making sure that people are 
in compliance, and that if there are any kinds of questions 
that we do stop those vessels. We stop them out on the water, 
out at sea before they come into the port of entry.
    We have the Coast Guard, who we work very closely with, 
where it is not unusual for the Coast Guard to stop vessels 
that coming from various locations. We also have at our ports 
of entry, we do have our officers that do go to the various 
marinas on various enforcement actions to see who is coming in, 
to ask around, to work. We need the support of the public on 
this one here, is there anything unusual, is there a marine 
operator that sees somebody who comes in that they have never 
seen before? It really is an effort by a multiple number of 
groups to try to ensure that we are coordinating and 
communicating.
    The back end of it is that the person has to report the 
arrival; that is the closing of the entire process. But it 
really--please understand that it is not just the reporting 
requirement that CBP has out there, there are other assets that 
we utilize. The State and locals are very engaged; it is not 
unusual for us to work with them. The various boat operators at 
the piers, I mean, it is a group effort. So I think that 
obviously there could probably be more in that area, but 
remember the small boat is a community that can be watched very 
carefully, too, I mean, in the sense that there are the 
capabilities to know who is coming into an area that you might 
not have seen before, and we depend on that cooperation.
    Mr. Cox. Well, I would suggest that we get the Information 
Analysis Office at DHS in collaboration as you take a look as 
this. I am very pleased that Customs and Border Protection are 
working together. And there is no reason in the world that we 
shouldn't infuse this process with more intelligence so that we 
are looking at terrorist capabilities and intentions, and our 
own vulnerabilities and problems like this with the real 
measure of counterterrorism in mind.
    I would yield whatever time Chairman Linder has remaining 
to Chairman Linder.
    Mr. Linder. I just have a question for you, Mr. Jacksta; do 
you have any problem with this bill?
    Mr. Jacksta. Sir, I think that we have some concerns with 
it when it specifically pinpoints what areas we should be going 
to or what inlets. I think that what we need to do is look at 
it from a perspective of what is the best place for our 
resources, and let us, if we are going to move forward, make 
the decision on what the right place is based on that 
intelligence, based on an evaluation of the workload issues, 
evaluation of what is available for us in those areas to do the 
job.
    Mr. Linder. How about the Net, how about the Web, and a 
phone call?
    Mr. Jacksta. I am concerned about that, sir. I will tell 
you that that is something that we have looked at. We clearly 
would like people to come to us and identify themselves. If you 
call up on the phone or on the Web and we never get to see you, 
there is no capabilities to verify that you are actually that 
person. So we would like to have somewhere in the process, 
before we register you in any type of trusted traveller 
program, to have the capabilities to verify, first of all, is 
your documents okay, and if there is any issue, not issue 
clearance. So we think that--we can start the process with the 
Web application, but we don't want to close that process until 
we do a face to face.
    Mr. Linder. What do you think the chances are that somebody 
who is coming here intending ill will is going to cooperate 
with you?
    Mr. Jacksta. Well, I think that there--I mean, if you look 
at people who are of concern to us, not all of them want to 
come into the United States illegally; they want to get in here 
and be able to move freely and be able to get across the 
border, and if necessary go back and forth. So people who get 
into the country illegally in one way are sort of trapped here 
in the sense that they don't have the capabilities to go back 
and forth, and if they get stopped they are a concern and can 
alert--.
    Mr. Linder. So is it your position that if they sign up 
with you, even though they are intending ill will, and get here 
legally, and go back and forth to the borders legally, you are 
going to give them that credit?
    Mr. Jacksta. Based on our background check, based on what 
we know about that person, if there is anything that would 
prevent us, we wouldn't issue that person a travel card, a 
trusted card. I think we have some historical background on the 
northern border and on the southern border with the Century 
programs and the NEXUS program where we require the 10 
fingerprint check, we verify who they are. We do a check of 
them. The officer does an interview of them. We ask them 
questions about their employment, what they are doing. Clearly 
that is not going to be the perfect system, but it definitely 
weeds out those individuals who might be of concern.
    Mr. Linder. My time has expired. Thank you, Mr. Chairman.
    Mr. Lungren. I would like to ask Mr. Foley and Mr. Ellis 
this. And that is, we in Congress are engaged in trying to 
strengthen our borders. There has been a big argument in the 
House, as you know, to add Border Patrol officers to intensify 
our eyes and ears across the board. Some might look at this 
proposal as an effort, yes, make it more convenient for 
boaters, but in the process to make our borders even more 
porous. And while we might not conclude that those who want to 
do us ill would necessarily sign up and come through the 
process, part of what we do is for deterrent effect, the show, 
if you will, the sense that it is tough to get in illegally.
    And what would you say to those who would say this goes in 
the wrong direction in that it would look like we are sort of 
giving up to the sense for convenience? And I am not 
underestimating the difficulty of someone coming back, spending 
half a day running around doing it.
    If you have, on one hand, securing our borders and concern 
about terrorism, and on the other hand, inconveniencing people 
who spent a weekend in the Bahamas now coming back and having 
to spend several hours, maybe we can cut it down by having 
places a little bit closer to them. The balance ought to be for 
safety. I wonder what is your response.
    Mr. Foley. I would welcome tightening the borders with 
security. If you are asking people to comply with the law and 
then you don't provide the people at the building when they 
arrive to present themselves, what was the point? I think it is 
better to have Immigration--and they have been very helpful on 
holiday weekends, Memorial Day, Labor Day--to station people at 
the inlets so they can be doing good enforcement, monitoring 
the boats coming in and having face-to-face interviews.
    I personally do not want to spend money on the OARS system 
in Florida. I don't want to waste money. I am not sure it would 
work. When you fly a plane, you fly a flight plan, and when you 
land you have an exit plan. That works for aviation. Boating is 
a little bit different.
    But to assume somehow that we are going to toughen our 
security profile by having people show up at an airport when 
they are boaters and assume somehow that gives comfort and 
terrorists are going to go, woo, I don't want to go to America, 
my God, you know what you have to do now? If you get in a boat, 
you are going to drive to an airport; how inconvenient.
    We have to have some sense around here. And the reason I 
introduced the bill with the OARS program, it was the only way 
I could get a debate on this failed system. But I think the 
phone, as suggested by Chairman Cox, placing Immigration on the 
inlets so the boats come alongside and check in and stamp 
permits, I see everybody on the boat. But the burden of the 
poor Customs man at the airport, as he is trying to clear 
flights, to go outside and look at a trailer with kids in the 
back, okay, I guess you are all here. I don't know who left, 
because we didn't require you to file a plan before you left; 
but since there are 20 in the boat, I assume they were with you 
when you left. Welcome home. They don't even know who left, and 
yet they want them to check in when they come home.
    Preflight or pre-boat trip, after-boat trip, if they 
explain that to me, great, 1-800 number. Yesterday I called on 
my credit card. I needed to buy something. So quickly and 
easily enter your credit card, press pound. Last four digits of 
your Social Security number, pound. Took me right into the 
system. How many people returned? Five. You hit the buttons, 5 
minutes later, automatically entered under the frequent 
program. But to sit here and frustrate legitimate boaters under 
the current system is a total joke, and I don't mean to demean 
the agency, but once again the best questions were asked: Has 
anybody presented themselves that have ill intent against 
America? That has to be answered, ``absolutely not.''
    Mr. Lungren. To the extent we know.
    Mr. Ellis. I would like to add, first, if recreational 
boaters want to be enthusiastic participants in increasing our 
homeland security and basically whatever can be done to shore 
up our borders and especially along our coast, I think of the 
fact that 2 weeks ago I came back by airplane from outside the 
country and basically was shuttled down a glass-enclosed 
hallway, talked to several armed officers, went through a 
complete check where I felt it was tough to get into this 
country. When I arrived at that inlet at Lake Worth and pulled 
up to that marina and had to take the cab ride, I didn't think 
it was tough to get into this country. I felt the borders were 
so porous, I am not sure there could have been anything more. I 
am not aware of probably all the surveillance that went on of 
my boat or my vessel or whatever may have happened back behind 
the scenes, but this requirement did not add anything to that.
    My belief is that if we want to secure or have a more 
secure coastal border, we are going to have to enlist the help 
of the millions of recreational boaters in helping us do this. 
And if we have regulations that don't make sense, the 
government destroys its credibility with that particular group. 
And we would much rather have a partnership than a destroyed 
credibility.
    Mr. Lungren. Thank you. You might be one that suggested 
that prohibition didn't work.
    The gentlelady from California.
    Ms. Sanchez. Thank you, Mr. Chairman.
    I just--it doesn't seem like this OARS program is a very 
good one. So I have a question for you gentlemen. What about--I 
am trying to figure out maybe there is a way in which we can--I 
am thinking maybe if we just don't spend the money on more 
people in the port area to do random checks on the sea than 
having a whole check-in program--I left the country, I came 
back-type of thing--considering that most of the people who 
will check in are the ones who are decent people, and you 
aren't going to have a terrorist check in, maybe we don't go 
into this whole thing and maybe we take the limited resources 
we have to do more random checks of boats coming in or leaving 
or what have you.
    I am trying to figure out where we use limited resources 
for its best use. And maybe we just have a little shack 
somewhere in the inlet where people know they bought more than 
the $800 can come in and declare their Customs or what have 
you, versus having this check-in, where it seems to me like we 
are never going to catch everybody anyway, especially if we do 
it at the airport. Not everybody is going to come. And wouldn't 
we be better off using our resources to actually go after 
possible bad guys? Do you have--any of you have a comment on 
that?
    Mr. Ellis. There is one point in there that I don't want 
anybody to get down the wrong path on. The Fort Worth inlet, 
which is a secure inlet from a safety standpoint, large ships 
use that inlet. Having said that, the day I came in, there were 
4-foot seas running, and there will be no individual place 
within that inlet or within a confined area where you would be 
able to actually put up a station to pull aside or talk to any 
Customs or Immigration officials.
    So I am afraid you may find that geography may force you 
into the point you may have to look at multiple points of 
contact. But going to your point of trying to use limited 
resources as best as possible, to me it seems very simple that 
you make compliance relatively easy and then focus 95 percent 
of your resources on noncompliant individuals, and you will get 
your highest opportunity for interdicting problems out there.
    Mr. Jacksta. I would like to add, once again, it is a very 
difficult issue. If you are familiar with the boating areas, 
when you go in there, trying to filter out who was actually 
coming back from an international trip versus who just went out 
3 miles to do some fishing and coming back is very difficult.
    It is extremely important for us to once again work with 
all the various agencies involved with securing our borders to 
make sure we can spot anyone who might be of concern. I agree 
that we need to use risk management. It is something that is 
important to us. And putting a lot of money into this is 
something we are trying to evaluate right now. The OARS system 
is a system that will help out. If you ask me my feeling, I 
think the position of the agency is we want to have a trusted 
traveler-type program; people who register before, whether it 
is before the boater leaves on the trip or weeks before they 
leave, that they let us know, they come in and register: I am 
Bob Jackson, I am going on a trip, and this is my family. And 
we put them in a system so when they come back, we can verify 
that they are in compliance and that can be done by telephone. 
That is an easy process and we don't need to see those 
individuals.
    We also need to recognize that there are other people other 
than U.S. citizens coming in here. There are a lot of other 
people that are not U.S. citizens and visiting the United 
States and they come in through this small-boat environment. 
That is where the immigration requirements come in, and that is 
why we ask them to come, because we need to verify that their 
documentation is correct and they are eligible to come into the 
United States.
    Miami is a difficult area and there are a number of reasons 
why that is, but clearly something we have to pay attention to 
because of illegal immigration and narcotics.
    Ms. Sanchez. If they don't come in--say you are a foreigner 
and coming to visit Miami for 3 weeks, and my mom is here and I 
am from Columbia, but I am living in the Bahamas or whatever it 
is, and I come in by boat and I don't have a visa to be in the 
country. The alternative is I just don't check in; right? They 
come in on the boat, unload at the marina, and I am there for 3 
weeks and friends come by and pick me up; 3 weeks later take me 
out, or I use my boat to go out and what have you. We are not 
catching all those kinds of people.
    Mr. Jacksta. That is correct. That is a vulnerability that 
we have there, and the question is, you know, how much risk do 
you want to put into trying to correct that? Do you want to put 
an officer at every marina? That would cost a large amount of 
money.
    To put the OARS system at every location would be extremely 
expensive. We are trying to look at what is the best way to do 
this, and make it easier for the people who want to be in 
compliance, and then focus our efforts on those that we know 
are not.
    Mr. Foley. I would like a date certain when we leave this 
hearing that something will be decided, hopefully by the 
agency, whether it is that frequent program or maybe the OARS 
system; that somehow we don't go years down the road under the 
same current burden.
    I think the Congresswoman is absolutely correct. I would 
rather have people out in the inlets patrolling, looking for 
suspicious people. I think that does a face-to-face job better 
than assuming this group is going to show up again at an 
airport. It is absolutely nonsensical to me that anybody is 
going to comply that either has ill intent or is seeking to 
sneak into the country.
    Enforcement money spent, rather than OARS, on putting 
people at inlets to monitor. You are right about inlets. There 
is no place to pull over. You have to go inside and find some 
kind of place. But at the end of the day, I am afraid we will 
do this month after month and frustrate the legitimate boater 
and create economic problems in south Florida which have been 
exacerbated by this more recent requirement.
    Mr. Lungren. The gentleman from California.
    Mr. Cox. I like the direction this discussion has taken 
because we are starting to focus on what we are paying and what 
we are getting.
    What is our purpose here? We have three potential purposes. 
One is counterterrorism, one is Customs revenue and one is 
enforcing immigration regulations. Obviously, immigration and 
secure borders is part of counterterrorism, but there was an 
immigration policy priority before 9/11 and before we decided 
that this was a terrorist hole. So I think those three pieces 
are the right three pieces.
    I want to continue to explore the counterterrorism piece 
because that is the genesis of these burdensome requirements. 
What I have heard makes me think that this is another example 
of a change that we made post-9/11 that has placed burdens on 
law-abiding Americans but has not given us a security payback, 
it is not making us safer. And I think we actually have 
agreement all around on that; that there really isn't a high 
counterterrorism value to the system that is in place.
    So I want next to move to challenge what we might do next 
as being weak on the same ground, and that is this idea we are 
going to apply registered traveler to boaters who can come in 
along this miles and miles and miles-long shoreline.
    The fallacy, it seems to me, is in comparing the airport 
model, which is a involuntary system, to this model, which is a 
voluntary system. If I have a cube at an airport and everybody 
is lined up and I can get some of those people through the cube 
faster because they are registered travelers, that is reducing 
the size of the haystack and making it easier to find the 
needle. But the needle is in line somewhere.
    Whereas if I have a voluntary system and all I am doing is 
registering all the law-abiding people, I haven't reduced the 
size of the haystack because the other folks aren't 
volunteering to be in my line. I don't understand the security 
payback. Am I missing something?
    Mr. Jacksta. Sir, I think what is of concern is that what 
we want to do is to make sure that people who arrive are 
documented that they arrived.
    Mr. Cox. Is this an immigration purpose rather than a 
counterterrorism purpose?
    Mr. Jacksta. I think that ensuring that the immigration 
requirements are met, it helps our antiterrorism effort.
    Mr. Cox. Why?
    Mr. Jacksta. I think it is important to make sure that 
people--that we document those people who are arriving at our 
ports of entry, whether it is at an airport, a land border, or 
at a seaport.
    Mr. Cox. If we could do that, if we could corral the 
universe of people coming here and identify them and then 
search for the exceptions to the rule, that would be a workable 
system. But I think we have all conceded in this discussion 
thus far that that is not possible. You told us that an 
objection to OARS is you don't have enough people to answer the 
phones, and yet we are proposing a system that is going to 
require background checks on all Florida boaters. Is that 
realistic?
    Mr. Jacksta. Yes, sir, I do. Obviously it would be 
difficult to begin with. If people want to register in this 
program--remember, the small boat program is only based on our 
numbers from the international side of the house. We have 
somewhere in the area of 50,000 arrivals in fiscal year 2004. 
With that, I mean, if we can get people to participate in the 
trusted traveler program, we already have 75,000 people 
registered on our northern border. We have 70,000 on our 
southern border. We think that that is an opportunity for these 
boaters who go back and forth to register.
    Mr. Cox. Let us assume we have 100 percent compliance by 
all Florida recreational boaters in the registered traveler 
program and we have done background checks on every single one 
of them; have we gained access to a single one of the problems 
of the terrorists who still are participating in a voluntary 
system? The problem, it is a voluntary system so there are no 
boundaries to it; whereas in the airport, you have to stand in 
line and go through the magnetometer, get on the plane and 
there ain't no choice.
    Mr. Jacksta. The only other alternative, which is a 
Draconian effort, is to make the small boats arrive at specific 
locations. Make them--instead of giving them the authority to 
arrive at the port of entry which is a vast area, make the 
small boats arrive at specific locations where we could have a 
CBP officer 24/7 and have the boat processed that way. I don't 
know whether that would go very well in the boating community.
    Mr. Cox. Mr. Chairman, I just want to say while this 
hearing has been focused on issues surrounding recreational 
boating, it really is a useful example of problems that we have 
got to debate and decide throughout our economy, because we 
have to find a way to balance our way of life with the security 
demands in the post-9/11 world. If we can constantly go back to 
square one and say what is our point, how are we doing in 
tracking down these terrorists, measure our results, is this 
system working to find terrorists, I think we will in the end 
spend our dollars much more wisely and simultaneously achieve 
our objective of making this country better every day instead 
of worse.
    Mr. Lungren. I thank the gentleman for his questions. I 
thank Mr. Jacksta for helping us with our inquiries here today; 
Mr. Ellis, and, of course, Congressman Foley.
    One thing I would like to say, Mr. Jacksta, I am happy to 
hear you and your cohorts are looking at this problem in trying 
to figure out what is effective. I hope as you do that, you 
would take the words of the Chairman of the full committee to 
heart. We need to go back to first principles, if you will. 
That is what is the purpose in what it is we are doing. We all 
get caught up in having started doing something and trying to 
do it better, and it may not be what we want to do when we look 
back on it.
    So I thank all of you for presenting today. I thank our 
colleague, Mr. Foley, for inducing this presentation, this 
discussion, by virtue of the bill he has introduced. I think we 
have got valuable testimony. Members of the committee may have 
some additional questions for the witnesses and we will ask you 
to respond to those in writing. The hearing record will be held 
open for 10 days. We thank the members of the committee and our 
witnesses and the committee stands adjourned.
    [Whereupon, at 3:20 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
